TN

C@OQCKLE

- E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-567

OHIO EX REL. ELLIOTT FELTNER,
Petitioner,
v.
CUYAHOGA COUNTY BOARD OF REVISION, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8010 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this Ist day of February, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska A Chk
i RENEE J. GOSS 9. :

Affiant 40603

 

My Comm. Exp. September 5, 2023

 

Notary Public
